                           AUDIT REPORT




Plant Load Agreements –
Greensboro District
    April 30, 2014




                     Report Number MS-AR-14-003
                                                                             HIGHLIGHTS

                                                                             April 30, 2014
                                               Plant Load Agreements – Greensboro District
                                                              Report Number MS-AR-14-003
BACKGROUND:
The U.S. Postal Service offers its                   18 agreements were associated with
commercial customers special                         revenue of over $153 million.
arrangements called plant load
agreements. Through these                            WHAT THE OIG FOUND:
arrangements, the Postal Service                     The Greensboro District was not
agrees to pick up mail at a customer’s               adequately approving or monitoring
plant and transport it directly to a Postal          plant load agreements. Documents were
Service destination facility. In return, the         missing, lacked signatures, and were
customer agrees to provide sufficient                not reviewed as required. These
volumes and revenues to offset                       conditions occurred because the district
transportation costs and yield net cost              did not have a system to monitor
savings.                                             compliance with the agreement. During
                                                     our audit the district began to implement
Plant loading bypasses handling at                   several corrective actions, such as
Postal Service facilities, which reduces             updating current plant load agreements
processing time, staffing, and dock                  and creating a plant load committee to
space requirements. Plant load                       review applications and address issues.
agreements can be financially and                    Additional improvements are needed,
operationally beneficial to the Postal               however, to ensure the district complies
Service and a productive way to foster               with approval and monitoring related
positive relationships with its customers.           requirements in these agreements.

District staff and postmasters help                  Until approval and monitoring
initiate, monitor, and coordinate plant              improvements are implemented, the
load agreements. Performance under                   Postal Service risks incurring
these agreements should be monitored                 unnecessary operational costs. We
since conditions, such as mail volume                estimate transportation costs of
and transportation routes, can change.               $500,209 in FY 2014 as disbursements
                                                     at risk.
Our objective was to assess how
effectively plant load agreements in the             WHAT THE OIG RECOMMENDED:
Greensboro District protect Postal                   We recommended the district manager,
Service revenues and costs. We                       Greensboro District, develop a system
selected this district because a Postal              to ensure compliance with plant load
Service review found that it presented               agreements, particularly those related to
one of the greatest opportunities for cost           approving and monitoring these
savings. The district had 18 plant load              agreements.
agreements as of January 2014. In
fiscal year (FY) 2013, these                         Link to review the entire report
April 30, 2014

MEMORANDUM FOR:           RUSSELL D. GARDNER
                          DISTRICT MANAGER, GREENSBORO DISTRICT




FROM:                     Janet M. Sorensen
                          Deputy Assistant Inspector General
                           for Revenue and Business

SUBJECT:                  Audit Report – Plant Load Agreements – Greensboro District
                          (Report Number MS-AR-14-003)

This report presents the results of our audit of the Plant Load Agreements – Greensboro
District (Project Number 14RG005MS000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Joshua M. Bartzen, acting
director, Sales and Marketing, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Plant Load Agreements – Greensboro District                                                                        MS-AR-14-003




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Plant Load Agreement Deficiencies ................................................................................ 2

   Approval of Plant Load Agreements ............................................................................ 2

   Monitoring of Plant Load Agreements .......................................................................... 2

Recommendation ............................................................................................................ 4

Management’s Comments .............................................................................................. 4

Evaluation of Management’s Comments ......................................................................... 4

Appendix A: Additional Information ................................................................................. 5

   Background ................................................................................................................. 5

   Objective, Scope, and Methodology ............................................................................ 6

   Prior Audit Coverage ................................................................................................... 7

Appendix B: Other Impacts ............................................................................................. 8

Appendix C: Plant Load Agreement Issues and Related Corrective Actions in the
 Greensboro District ...................................................................................................... 9

Appendix D: Management's Comments ........................................................................ 10
Plant Load Agreements – Greensboro District                                                           MS-AR-14-003




Introduction

This report presents the results of our self-initiated audit of the Plant Load Agreements
in the Greensboro District (Project Number 14RG005MS000). Our objective was to
assess how effectively plant load agreements in the Greensboro District protect U.S.
Postal Service revenues and costs.

Under plant loading arrangements the Postal Service picks up mail from a detached
mail unit (DMU) 1 within a mailer’s plant and transports it to a Postal Service destination
facility. In exchange for this transportation service, mailers agree to provide sufficient
volumes and revenues to offset the Postal Service’s costs and yield a net cost savings.
Plant loading bypasses handling at Postal Service facilities, which reduces processing
time, staffing, and dock space requirements. The Postal Service authorizes plant load
operations in accordance with the Domestic Mail Manual (DMM),2 based on projected
cost savings or other benefits. These agreements can be financially and operationally
beneficial to the Postal Service and a productive way to foster positive relationships with
its customers.

District staff and postmasters help initiate, monitor, and coordinate plant load
agreements. It is important that the Postal Service actively monitor these agreements
because conditions, such as mail volume and transportation routes, could change. As of
January 2014, the Greensboro District had 18 plant load agreements, with related
revenue of over $153 million in fiscal year (FY) 2013. See Appendix A for additional
information about this audit.

Conclusion

The Postal Service was not adequately approving or monitoring plant load agreements
in the Greensboro District. For example, the records for these agreements were missing
signatures and supporting documentation, and they were not reviewed every 4 years,
as required. These conditions occurred because the district did not have a system in
place to monitor compliance with plant load agreements. Because of this shortcoming,
we estimate transportation costs of $500,209 in FY 20143 as disbursements at risk. See
Appendix B for more information about this calculation.




1
  A DMU is an area in a mailer’s facility where Postal Service employees perform mail verification, acceptance,
dispatch, and other Postal Service functions.
2
  A complete description of plant load operations can be found in Sections D020 and M074 of the DMM.
3
  We used the total FY 2013 transportation costs for scheduled plant load agreements as the basis for this estimate.
Plant load operations are categorized as either scheduled or required, and additional information on these
categorizations are included in Appendix A.
                                                            1
Plant Load Agreements – Greensboro District                                      MS-AR-14-003


Plant Load Agreement Deficiencies

The district was not adequately approving or monitoring plant load agreements, as it did
not have a compliance system in place. During our audit the district began to implement
several corrective actions such as updating current plant load agreements and creating
a plant load committee. See Appendix C for a more detailed list of these issues and
corrective actions. Additional improvements are necessary, however, to ensure
compliance with plant load agreements. Until approval and monitoring improvements
are implemented, the Postal Service risks not covering its costs under the agreements.
In FY 2013, the district spent $500,209 for scheduled plant load mail pickup and
transportation. See Appendix B for more information about this calculation.

Approval of Plant Load Agreements

The Greensboro District was not following application approval procedures for its plant
load agreements, as records were incomplete.4 For example, we found:

       The district representative’s signature was missing for 12 of 18 agreements.
       The mailer’s signature was missing for 5 of 18 agreements.
       Six of 18 agreements lacked a reason for approval.

We also found that plant load applications were not reviewed by an established plant
load committee. More information on these issues is available in Appendix C. These
issues occurred because the district did not have a system in place to monitor
compliance with approval-related plant load agreement requirements. The district has
begun to take corrective actions in each of these cases, including updating signatures
for each agreement and creating a plant load committee. However, implementing a
system to ensure compliance with approval-related requirements should enhance these
actions and help protect the Postal Service’s financial interests.

Monitoring of Plant Load Agreements

The district was not monitoring plant load agreements in accordance with prescribed
requirements, including:

       Availability of information: During our fieldwork, none of the bulk mail clerks we
        met knew the minimum mail weight or number of pallets required by existing plant
        load agreements. This information is required by plant load agreement guidance5
        and is critical for adequate plant load performance monitoring. The Postal Service
        did not have a system in place for making key plant load information available to
        staff responsible for monitoring plant load performance.

       Quality and frequency of reviews: The Postal Service was not reviewing mailer
        performance under these agreements in accordance with applicable procedures.

4
    Handbook PO-512, Plant Loading Authorization and Procedures Guidelines.
5
    Handbook PO-512 Section 4-51.2, October 2002.


                                                        2
Plant Load Agreements – Greensboro District                                                            MS-AR-14-003


        For example, we found 14 agreements that were not reviewed within the required
        4 years.6 The district was also not aware that 14 of its 18 plant load agreements
        had expired. During our fieldwork, we observed several nearly empty Postal Service
        trucks leaving mailer plants and plant load volumes well below agreed upon
        amounts. District officials advised that volume fluctuations are common and
        expected, and that there are important customer service and retention aspects to
        continuing this service when volumes are low. While we appreciate these
        considerations, the district should still comply with its requirement to review plant
        load agreements at least every 4 years, and consider developing ways to increase
        the quality and frequency of these reviews to protect the Postal Service’s financial
        interests.

       Addressing mailer concerns: Mailers identified inconsistencies and operational
        inefficiencies related to the Postal Service’s performance under these agreements.
        These issues likely resulted from inadequate oversight. Mailers we met with
        mentioned the following operational issues:

        o Truck sizes—Mailers stated the district was providing a variety of truck sizes and
          this inconsistency made it hard to prepare the correct amount of pallets to fill the
          trucks.

        o Stacking pallets—Mailers advised the district does not want the pallets to be
          stacked as described by the DMM.7

        o Pallet height—Mailers stated the pallet height requirement is inconsistent.

The district has begun to take corrective actions in each of these cases, including
developing processes for providing plant load data to bulk mail unit staff and tasking the
district marketing manager with overseeing plant load agreements. Developing a
system to ensure compliance with monitoring-related requirements could enhance
these actions and also provide other benefits to both the Postal Service and mailers.
Other benefits could include (a) helping the Postal Service and mailers achieve the
expected benefits of each plant load agreement, (b) protecting the Postal Service’s
financial position, (c) resolving mailer-related issues more efficiently, and (d) enabling
the agreements to be more easily updated if conditions change after plant loads are
approved.




6
 Handbook PO-512 Section 1-11, October 2002.
7
 DMM 705.8.3. Stacking Pallets. Pallets may be stacked two to six tiers high (if they follow the requirements).
January 26, 2014.


                                                          3
Plant Load Agreements – Greensboro District                                   MS-AR-14-003




Recommendation

We recommend the district manager, Greensboro District:

1. Develop and implement a system to ensure compliance with plant load agreements,
   particularly provisions related to the approval and monitoring of these agreements.

Management’s Comments

Management agreed with our finding and recommendation. Management created a
Plant Load Committee for oversight of all plant load agreements. Management also
created a cover sheet for all plant load agreements that shows mailer name, location,
annualized revenue, trip schedule, and justification for the plant load. Marketing held a
telephone conference with all DMU clerks who work at DMU plant load sites to ensure
they were aware of the plant load processes and distributed a worksheet to monitor
plant load volumes. Management plans to complete its review of plant load agreements
with volume by May 30, 2014. See Appendix D for management’s comments, in their
entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendation and corrective actions should resolve the
issues identified in the report.




                                              4
Plant Load Agreements – Greensboro District                                    MS-AR-14-003




                             Appendix A: Additional Information

Background

The Postal Service authorizes plant load operations in accordance with the DMM, and
districts are to consider plant load agreements based on projected cost savings or other
benefits to the Postal Service. Plant load operations are categorized as either
scheduled or as required. For scheduled plant load agreements, the Postal Service
provides regularly scheduled transportation between the mailer’s plant and destination
Postal Service facilities. As required plant load agreements have no predetermined
mailing schedule and include various destination Postal Service facilities.

District staff and postmasters help initiate, monitor, and coordinate these agreements.
Each district manager must establish a cross-functional district plant load committee to
review plant load agreement applications and address plant load issues within the
district. The district manager is responsible for coordinating, managing, and expediting
the approval of Postal Service (PS) Form 3815, Plant-Load Authorization Application,
Worksheet, and Agreement, within the district and maintaining all original approval
documents, files, and mailer records of district mailers and their plants in a plant load
file. The local postmaster serving the mailer’s plant is responsible for monitoring plant
load operations and coordinating with the district plant load committee.

Conditions such as mailer volumes and Postal Service transportation routes can change
during the course of the agreements. As a result, the Postal Service is required to
periodically review and update all plant load agreements to ensure savings and
efficiency for the Postal Service and the customer. The mailer and the Postal Service
must renew PS Form 3815 at least once every 4 years by refreshing the appropriate
information. If a mailer fails to meet the terms of the plant load agreement for two
consecutive Postal Service accounting periods, the postmaster must promptly
notify the plant manager and district manager, and the district plant load committee
should re-evaluate the plant load approval. If the mailer does not make permanent
corrections within 30 days after a written warning from the Postal Service, the district
manager must immediately terminate the mailer's plant load approval.

We selected the Greensboro District within the Capital Metro Area because the Postal
Service’s Financial Testing and Compliance group conducted a review of the plant load
agreement mailing load requirements and projected the Greensboro District presented
one of the greatest opportunities for cost savings. As of January 2014, the Greensboro
District had 18 plant load agreements, with related revenue of over $153 million in
FY 2013.




                                              5
Plant Load Agreements – Greensboro District                                   MS-AR-14-003


Objective, Scope, and Methodology

Our objective was to assess how effectively plant load agreements in the Greensboro
District protect Postal Service revenues and costs. Our audit scope covered the
Greensboro District in the Capital Metro Area and related facilities. The review included
plant load agreements in place in the Greensboro District in FY 2014 and related cost
and volume data as appropriate.

To accomplish our objective, we:

   Reviewed and analyzed plant load agreements and reviewed data on the number,
    type, and location of these agreements.

   Reviewed the policies and procedures that govern the creation, approval,
    maintenance, data, and review of plant load agreements, and discussed them with
    area and district personnel.

   Obtained and reviewed plant load agreements to evaluate criteria and process for
    committee approval/disapproval of plant load agreements.

   Conducted tests on the volume per selected agreement specifications.

   Observed plant load operations at 10 facilities, including observing the amount of
    mail placed on trucks, and interviewed bulk mail clerks and mailers.

   Interviewed mailers that had or currently have agreements to understand the
    process and obtain mailer feedback on needed service.

   Estimated the cost of the agreements and evaluated the cost/benefit to the Postal
    Service.

We conducted this performance audit from October 2013 through April 2014 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on April 11, 2014, and included their
comments where appropriate.

We relied on computer-processed data maintained by Postal Service operational
systems, which include PostalOne! and the Enterprise Data Warehouse. We did not test
the validity of controls over these systems. However, we assessed the reliability and
verified the accuracy of the data by confirming our results with Postal Service managers




                                              6
Plant Load Agreements – Greensboro District                                      MS-AR-14-003


and other data sources. We also relied on prior OIG reviews of Postal Service systems.
We determined that the data were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this audit.




                                              7
Plant Load Agreements – Greensboro District                                                         MS-AR-14-003




                                      Appendix B: Other Impacts

             Recommendation                        Impact Category                       Amount
                   1                            Disbursements at Risk8                  $1,500,627

We reviewed the 18 plant load agreements at the Greensboro District in the Capital
Metro Area that were in place as of January 2014 and identified issues concerning how
they were approved and monitored. For example, we found plant load agreements that
were not signed, had insufficient approval documentation, were missing plant load
agreement applications, and were not reviewed as required. The Postal Service was at
risk of incurring unnecessary operational costs because it did not have a system in
place to monitor compliance with plant load agreement requirements. We estimate total
FY 2013 transportation cost of $500,209 for nine of 10 scheduled plant load agreements
as disbursements at risk.9 We then determined these disbursements were also at risk
for FYs 2012 and 2014.




8
 Disbursements made where proper Postal Service internal controls and processes were not followed.
9
 Out of the 18 plant load agreements, we only claimed nine of 10 scheduled plant load agreements, as the Postal
Service was unable to provide data on one scheduled and four “as required” agreements. Mailers transport their own
mail under the remaining four agreements under expedited shipping agreements.


                                                        8
Plant Load Agreements – Greensboro District                                                               MS-AR-14-003


 Appendix C: Plant Load Agreement Issues and Related Corrective Actions in the
                             Greensboro District

                 OIG issue                                                   Corrective action
Approval records for plant load                                 The district has begun to complete the
agreements were incomplete and                                  missing approval requirements for each of
insufficient—all 18 agreements were                             these agreements.
missing at least one or more of the
following key approval requirements:10
 District representative’s signature
    missing (12 of 18).
 Mailer’s signature missing (5 of 18).
 Did not indicate reason for approval
    (6 of 18).
 Expedited Shipment Agreements 11
    approved without plant load agreement
    (4 of 18).
Data on anticipated volumes for each                            The district is developing a process for
mailer were not provided to bulk mail staff                     providing plant load data to bulk mail unit
responsible for monitoring plant load                           staff.
operations.12
The required district plant load                                The district created the plant load
committee 13—a key body for reviewing                           committee.
plant load agreement applications and
appeals—was not established.
Agreements were not reviewed within the                         The district has begun to renew the
required 4-year period (14 of 18).                              expired agreements and tasked the district
                                                                marketing manager to oversee plant load
                                                                agreements.
The district initially was not aware of the                     The district established records for each of
number of existing agreements, as it only                       the 18 agreements. Furthermore, for each
had records for 14 of the 18 agreements.                        agreement, the district created a folder
                                                                and cover page that records key terms.
Source: OIG observations and analysis, discussions with district officials, and review of applicable district
documentation.




10
   District personnel did not complete 18 PS Forms 3815.
11
   Expedited shipment agreements are granted when a mailer requests an extraordinary level of service or transports
its own mail because it requires a delivery timeframe that the normal Postal Service transportation for that class of
mail cannot provide.
12
   The local postmaster must ensure that DMU personnel observe the loading of plant load vehicles and monitor plant
load operations. If, at anytime, a mailer fails to meet the requirements set forth in the DMM, the provisions of
PS Form 3815, or the guidelines in this handbook, the postmaster must promptly notify the mailer to correct the
deficiency. Handbook PO-512, Section 4-5.1.2, October 2002.
13
   The district manager establishes the plant load committee. The committee is composed of a cross section of
Postal Service employees with different functional responsibilities to address plant load issues within the district.
Handbook PO-512, Section 4-5.2 and 2-2, October 2002.


                                                            9
Plant Load Agreements – Greensboro District                   MS-AR-14-003


                          Appendix D: Management's Comments




                                              10
Plant Load Agreements – Greensboro District        MS-AR-14-003




                                              11
Plant Load Agreements – Greensboro District        MS-AR-14-003




                                              12
Plant Load Agreements – Greensboro District        MS-AR-14-003




                                              13
Plant Load Agreements – Greensboro District        MS-AR-14-003




                                              14
Plant Load Agreements – Greensboro District        MS-AR-14-003




                                              15
Plant Load Agreements – Greensboro District        MS-AR-14-003




                                              16
